HHS/OIG, Audit -"Review of Health Net of California's Modifications to Its 2004
Adjusted Community Rate Proposal Under the Medicare Prescription Drug, Improvement, and Modernization
Act,"(A-09-05-00056)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Health Net of California's Modifications to Its 2004 Adjusted Community
Rate Proposal Under the Medicare Prescription Drug, Improvement, and Modernization Act," (A-09-05-00056)
November 16, 2005
Complete
Text of Report is available in PDF format (839 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Health Nets use of its Medicare Prescription Drug,
Improvement, and Modernization Act (MMA) payment increase was allowable and adequately supported
under the MMA. Health Nets use of its MMA payment increase of $5.6 million (or $42.88 per-member
per-month) was allowable and adequately supported under the MMA.  Specifically, Health
Net used the increased MMA payments to reduce beneficiary cost sharing, enhance benefits,
and stabilize beneficiary access to providers.  Therefore, we are not making any recommendations
to Health Net.